                                                    (j-)0\.SECv
                                                             ~
                                                   ~
                                                   \ IIIIIII~.t
                                                       '\'JSTi-t-
                                       SOCIAL         SECURITY
MEMORANDUM              :-             Office of the Inspector      General

Date:    MAR 1 2 2002                                                         Refer To:


To:     Ellen Baese
        Director
        Management     Analysis   and Audit Program   Support       Staff

        Assistant Inspector General
         for Audit

Subject:Single Audit of the State of Wisconsin   for the Fiscal Year Ended June 30, 2000
        (A- 77 -02-00010)

        This report presents the Social Security Administration's (SSA) portion of the single
        audit of the State of Wisconsin for the Fiscal Year ended June 30, 2000. The
        Legislative Audit Bureau performed the audit. Results o(the desk review conducted by
        the Department of Education (DOE) have not been received. We will notify you when
        the results are received if DOE determines the audit did not meet Federal requirements

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA's Disability
        Insurance and Supplemental Security Income programs are identified by CFDA
        number 96. SSA is responsible for resolving single audit findings reported under this
        CFDA number.

        The single audit reported that SSA might have reimbursed the Wisconsin Division of
        Vocational Rehabilitation (DVR) for client rehabilitation services based on incorrect
        administrative costs. The auditors were unable to determine how SSA's reimbursement
        amount was calculated because DVR did not retain the supporting documentation. The
        corrective action plan indicates that DVR considers the differences in the administrative
        costs used to calculate SSA's reimbursement amount as inmaterial. DVR agreed to
        retain supporting documentation for future calculations (See Appendix A).

        We recommend that SSA verify the accuracy of the amount the Wisconsin DVR was
        reimbursed for SSA-related rehabilitation services and recover any unallowable
        amounts.
Page 2 -Ellen   Baese


Please send copies of the final Audit Clearance Document to Mark Bail.ey in
Kansas City and Paul Wood in Baltimore.     If you have questions contact Mark Bailey
at (816) 936-5591.
                                                  I   ~

                                                      '1-
                                                                 1

                                                                 I,
                                                                        ,/

                                                                        ~1
                                                                             JU   ~

                                        ,jv.Jl-             ~J
                                         Steven       L.    Schaeffer


Attachments
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF WISCONSIN
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2000


   March 2002      A-77-02-00010




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
Appendix A
Page 1 of 2
Appendix A
Page 2 of 2
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                                Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
